2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OQCKLE

: E-Mail Address:
Le ga I B Be ec fs contact@cocklelegalbriefs.com
st. 1923,

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-877

TRINELL KING,
Petitioner,
v.
RICKY PRIDMORE,
COREY ARCHER and ANDREW HILL,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2584 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Ist day of April, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska w Chk
A RENEE J. GOSS 9. ¢ dan <

Notary Public Affiant 40787

My Comm. Exp. September 5, 2023

 

 
